                                                  EMPLOYMENT AND TRAINING
                                                  ADMINISTRATION

A   Office of Inspector General—Office of Audit




                                                  SENIOR COMMUNITY SERVICE
                                                  EMPLOYMENT PROGRAM
                                                  ANTIDEFICIENCY ACT VIOLATION




                                                                       Date: November 21, 2008
                                                              Report Number:   25-09-001-03-360
                              U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210


November 21, 2008

                    Assistant Inspector General’s Report


The Honorable Tom Harkin
Chairman, Subcommittee on Labor, Health and Human
 Services and Education, and Related Agencies
Committee on Appropriations
United States Senate

The Honorable David R. Obey
Chairman, Subcommittee on Labor, Health and Human
 Services and Education, and Related Agencies
Committee on Appropriations
United States House of Representatives

In response to your letter dated September 26, 2008, we have reviewed recent
actions taken by the Department of Labor (DOL) related to the Senior Community
Service Employment Program (SCSEP), and obtained answers to the following
questions that you posed:

   •   What are the facts surrounding the Antideficiency Act violation, including
       DOL’s delay in providing formal notification of such violation?
   •   What are the functions and specific activities being performed under
       contract to the Employment and Training Administration’s Older Workers
       office?
   •   What options are potentially available to DOL for using sources other than
       SCSEP formula funds to pay for contractor-provided technical assistance?
   •   Is the proposed SCSEP regulation consistent with existing law and does it
       meet the standards laid out in White House Chief of Staff Joshua Bolten’s
       memorandum of May 9, 2008?

In conducting our work, we reviewed the following: agency documents such as
emails and other correspondence related to the Antideficiency Act (ADA)
violation; contracts awarded using SCSEP funds; and information associated
with the proposed SCSEP regulation. We also met with staff from the
Employment and Training Administration (ETA), Office of the Assistant Secretary
for Administration and Management (OASAM), and the Office of the Solicitor
(SOL) to discuss actions taken by the Department and obtain explanations
regarding the information provided. We provided a draft of this report to
Departmental officials and made changes to this final report to address
comments they provided.

                                        1                SCSEP Antideficiency Act Violation
                                                             Report No.25-09-001-03-360
                              U. S. Department of Labor – Office of Inspector General




Results in Brief

As reported in the Secretary’s letter to the President dated September 11, 2008,
the ADA violation occurred because the Department carried over SCSEP funds
from one year to the two succeeding years, in violation of provisions in the
Department’s appropriation acts. Our interviews with program officials in ETA
and budget officials in ETA, the Office of the Assistant Secretary for
Administration and Management, and the Office of the Solicitor, as well as review
of related documentation, found that many people in DOL were aware or had
been informed that unspent SCSEP funds were being recaptured and
reobligated. After OMB informed DOL that an ADA violation may have occurred,
DOL conducted factual and legal research to determine if an ADA violation did, in
fact, occur; continued to discuss this issue with OMB staff, and drafted the
required ADA notification letters. The ADA notification letter to the President
stated that the total amount of the ADA violations was $39,450,476; however,
ETA has provided documentation to OIG showing violations totaling
$37,461,482. We are continuing to work with ETA officials to reconcile the
amounts of SCSEP funds that were recaptured, reobligated, and expended.

Functions and activities being performed under contract to the Employment and
Training Administration’s Older Workers office fall into three categories:
developing and maintaining the information technology infrastructure for the
SCSEP Performance and Results Quarterly (SPARQ) system; providing support
to SCSEP grantees on technological aspects of the SPARQ system; and
providing performance improvement technical assistance to grantees, including
program performance and data collection, training on the new regulations, and
travel and logistics for SCSEP conferences.

The alternate options for funding contractor-provided technical assistance, apart
from recaptured funds, are the 1.5 percent set-aside of SCSEP formula funds, as
provided by the 2006 Amendments to the Older Americans Act (Public Law 109-
365, dated October 17, 2006), or the use of funds from ETA’s Program
Administration account.

We did not find any direct inconsistency between DOL’s proposed SCSEP
regulations and the Older Americans Act, as amended. However, the timeline for
the proposed regulations did not comport with Mr. Bolten’s May 9, 2008
memorandum.




                                        2            SCSEP Antideficiency Act Violation
                                                         Report No.25-09-001-03-360
                              U. S. Department of Labor – Office of Inspector General


Background

SCSEP is a community service and work-based training program for older
workers. It was authorized by Congress in Title V of the Older Americans Act of
1965 to provide subsidized, part-time, community service work-based training for
low-income persons age 55 or older who have poor employment prospects.

SCSEP is currently funded at $521,625,000 for Program Year 2008 (July 1, 2008
through June 30, 2009). All funds are allocated by a formula among 56 units of
state and territorial governments, and 18 national nonprofit organizations. See
Exhibit 1 for a list of these national organizations.

On September 11, 2008, the Secretary of Labor reported a recurring violation of
the Antideficiency Act (ADA) that occurred in the SCSEP program in each of the
Fiscal Years (FYs) 2003 through 2008, covering appropriations enacted for
FYs 2001 through 2005. The Department reported that the total amount of the
violations was $39,450,476. The Department stated that the violations related to
the obligation of expired FY 2001-2005 funds beyond the period allowed for new
obligations as established in the Department’s annual SCSEP appropriation.
According to the Department, the violation occurred because it failed to
recognize that a provision in the Department’s appropriation acts, which limited
the availability of funds appropriated to SCSEP to one fiscal year, superseded a
provision in the Older Americans Act, which authorizes the Secretary of Labor to
reobligate SCSEP funds beyond the end of the fiscal year.

Results

What are the facts surrounding the Antideficiency Act violation, including
DOL’s delay in providing formal notification of such violation?

What caused the Antideficiency Violation?

The 2000 Amendments to the Older Americans Act (Public Law 106-501, dated
November 13, 2000, Section 515(c) allowed DOL to recapture unexpended
SCSEP funds at the end of the Program Year, and reobligate such funds within
the two succeeding years. In FY 2003, the Department first began recapturing
and reobligating unexpended Program Year (PY) 2001 SCSEP funds. ETA
officials stated that they believed it was proper to do so, based on Section 515(c)
of the Older Americans Act Amendments of 2000:

      At the end of the program year, the Secretary may recapture any
      unexpended funds for the program year, and reobligate such
      funds within the two succeeding program years for –




                                         3           SCSEP Antideficiency Act Violation
                                                         Report No.25-09-001-03-360
                                U. S. Department of Labor – Office of Inspector General


              (1)     incentive grants;
              (2)     technical assistance;or
              (3)     grants or contracts for any other program under this
                      title.

According to ETA officials, the “structural design” of the SCSEP often results in
grantees having unspent funds at the end of the Program Year. Program funds
are primarily used to subsidize the salaries of those enrolled in community
service work-base training. Due to illness, absenteeism, vacations, enrollee
turnover and other factors, it is difficult for grantees to keep their allotted training
slots fully occupied, resulting in unspent funds at year end. According to an ETA
official responsible for overseeing SCSEP, the impetus for the change to the
statute in the 2000 Amendments was to allow the recapture and reobligation of
these unspent funds, rather than having the unspent funds returned to the
Treasury.

On May 22, 2003, ETA issued Older Worker Bulletin No. 03-04. This bulletin,
signed by John R. Beverly, III (who was at that time the Administrator, Office of
National Programs) and Ria Moore Benedict (who was at that time Chief of the
Division of Older Worker Programs), provided the procedures for the recapture
and reobligation of unexpended Program Year 2001 SCSEP grant funds. The
bulletin stated:

       Under Section 515(c) of the OAA, the Department has the authority
       to recapture unexpended funds from SCSEP recipients at the end
       of the Program Year (PY) and reobligate such funds within the two
       succeeding PYs to be used for incentive grants, technical
       assistance or grants or contracts for any other SCSEP program.

       The SCSEP grant closeout process will be used to identify and
       recapture unexpended funds for use in subsequent SCSEP grant
       cycles. The Department currently intends to recapture PY 2001
       funds for use in PY 2003. Such funds may be used to support
       activities as authorized under Section 515(c).

Our interviews with program and budget officials in ETA found that these officials
were aware that unspent SCSEP funds were being recaptured and reobligated
and they believed this to be appropriate. In addition to these interviews, we also
reviewed e-mail traffic provided by an ETA budget official that shows that many
DOL program officials and staff were aware or had been informed of the
recapture and reobligation. Included among these program officials and staff
were:




                                           4            SCSEP Antideficiency Act Violation
                                                            Report No.25-09-001-03-360
                                U. S. Department of Labor – Office of Inspector General



Name                         Position/Title                   Current Employment Status
Emily DeRocco                ETA Assistant Secretary          Left DOL
Mason Bishop                 ETA Deputy Assistant             Left DOL
                             Secretary
David Dye                    ETA Deputy Assistant             Retired
                             Secretary
Douglas Small                ETA, Deputy Assistant            Current DOL Employee
                             Secretary
Tom Dowd                     ETA Director, National           Current DOL Employee
                             Programs
Lance Grubb                  ETA Director, Office of Grants   Retired
                             & Contract Management
Lorraine Saunders            ETA Grants Office                Current DOL Employee
Esther Johnson               ETA Comptroller                  Current DOL Employee
Gay Gilbert                  ETA Director, Office of          Current DOL Employee
                             Workforce Investment
Christine Ollis              ETA, Chief, Division of Adult    Current DOL Employee
                             Services
Judith Gilbert               ETA SCSEP Senior Staff           Current DOL Employee
                             Employee
Gale Gibson                  ETA Team Leader, Older           Retired
                             Worker Programs
Lois Engel                   ETA SCSEP Staff Assistant        Retired
Alex Brezak                  ETA Budget Analyst               Retired
Erica Cantor                 Former ETA Budget Officer        Current DOL Employee
Michael Jones                Former ETA Budget Officer        Current DOL Employee
Deborah Eschmann             Former ETA Budget Officer        Current DOL Employee (on
                                                              loan to CFC)
Shirley Womack               ETA Accounting Staff             Retired
Thomas Ryan                  OASAM Budget Analyst             Retired
Mark Morin                   SOL Attorney                     Current DOL Employee

While the 2000 Amendments to the Older Americans Act authorized the
recapture and reobligation of unspent SCSEP funds, language in Section 502 of
the "General Provisions" of the Department's appropriations acts for FY 2001
through 2005, contained conflicting instructions, as follows:

        Title V – General Provision - SEC. 502. No part of any appropriation
        contained in this Act shall remain available for obligation beyond the
        current fiscal year unless expressly so provided herein.

The above appropriation language superseded the authorization language
contained in the 2000 Amendments to the Older Americans Act. By continuing to
recapture and reobligate SCSEP funds during the period FY 2003 through FY
2008, the Department violated the Antideficiency Act.

The ADA notification letter to the President stated that the total amount of the
ADA violations was $39,450,476; however, ETA provided documentation to OIG
showing violations totaling $37,461,482. We are continuing to work with ETA

                                           5             SCSEP Antideficiency Act Violation
                                                             Report No.25-09-001-03-360
                               U. S. Department of Labor – Office of Inspector General


officials to reconcile the amounts of SCSEP funds that were recaptured,
reobligated, and expended.

When Did the Department Discover the Antideficiency Act Violation?

The Department reported an unrelated ADA violation in December 2006 involving
the apportionment of WIA funds, and subsequently created an Apportionment
Task Force, headed by the Assistant Secretary for Administration and
Management (ASAM), to “to identify budget execution shortcomings.” The Task
Force was comprised of senior Departmental officials who were charged with
identifying budget execution issues within their respective agencies. During the
Task Force’s review of various fund accounts, ETA officials determined that the
recaptured SCSEP obligations might be subject to apportionment. The
recaptured funds had not been apportioned previously.

In February 2008, OMB notified the Departmental Budget Center that $21 million
in prior-year recoveries listed on the SCSEP apportionment request should
probably be removed, pending further discussions on prior-year recoveries for
this account. After researching OMB’s questions regarding the prior year
recoveries, Departmental and OMB officials concluded in April 2008 that an ADA
violation had likely occurred.

What Happened After the ADA Violation Was Discovered?

The requirements for reporting ADA violations are contained in OMB Circular A-
11, Section 145. Section 145.9 states the following:

      Whenever OMB determines that a violation of the Antideficiency
      Act may have occurred, OMB may request that an investigation or
      audit be undertaken or conducted by the agency. In such cases, a
      report describing the results of the investigation or audit will be
      submitted to OMB through the head of the agency.
       . . . If the report indicates that a violation of the Antideficiency Act
      has occurred, the agency head will report to the President,
      Congress, and the Comptroller General in accordance with Section
      145.7 as soon as possible. . . .

According to Departmental officials, on February 5, 2008, OMB notified the
Departmental Budget Center that $21 million in prior-year recoveries listed on the
SCSEP apportionment request should probably be removed, pending further
discussions on prior-year recoveries for this account.

On February 28, 2008, officials from ETA, the Departmental Budget Center and
the Office of the Solicitor met to discuss OMB’s questions regarding SCSEP
recoveries. The Departmental Budget Center provided the information requested
by OMB on March 12, 2008, including the authorizing language from the 2000

                                          6            SCSEP Antideficiency Act Violation
                                                           Report No.25-09-001-03-360
                               U. S. Department of Labor – Office of Inspector General


Amendments to the Older Americans Act that permitted the use of recovered
funds. OMB suggested that DOL obtain an opinion from its Office of the Solicitor
on whether the recoveries can be apportioned.

On April 15, 2008, the Office of the Solicitor met with officials from the
Departmental Budget Center to discuss the use of recaptured SCSEP funds and
indicated there was likely an ADA violation because Section 502 of the
Labor/HHS/Education Appropriations Act limited the availability of SCSEP
funding to one fiscal year. Departmental budget officials sent a draft ADA letter
to OMB for review on April 23, 2008, and received comments back from OMB on
May 14, 2008. During June and July, meetings were held involving the Deputy
Secretary, ETA, OASAM, Office of the Solicitor, Office of Congressional and
Intergovernmental Affairs, and Office of the Chief Financial Officer to discuss the
violation, the Department’s response, and corrective actions, as well as ETA’s
plans to reserve PY 2008 funds to provide technical assistance and payment of
outstanding invoices from prior-year funding. Departmental budget officials met
with OMB on July 25, 2008, to discuss the ADA letter. OMB provided
Departmental budget officials with a template to use in finalizing the letter and the
Department continued working with OMB until the ADA letter to the President
was approved and signed on September 11, 2008.

What are the functions and specific activities being performed under
contract to the Employment and Training Administration’s Older Workers
office?

From FY 2003 through May 2008, ETA utilized recaptured funds to contract for
program support services for the Older Workers/SCSEP program. Once ETA
recognized that SCSEP appropriations law restricted the use of program funds to
the current fiscal year, it ceased utilizing the recaptured funds. For PY 2008,
ETA utilized the Secretary’s discretionary authority under Section 506(a)(1) of the
Older Americans Act to reserve SCSEP funds for program support activities.

The program support activities that ETA has contracted for include: the
development and maintenance of its SCSEP Performance and Quarterly Results
(SPARQ) system; training and assistance to grantees on the use of the SPARQ
system, and assistance to grantees on improving their performance.

ETA provided information to OIG showing that the agency had recaptured funds
totaling $44,071,438 during the period PY 2001 through PY 2005. Data that ETA
provided to OIG showed that it had obligated $37,461,482 of the recaptured
funds, including $18,359,974 for program support contracts: $4,388,766 for
contracts to develop and maintain the SPARQ system; $5,206,640 for contracts
to provide support to grantees on the use of the SPARQ system; and $8,764,568
for contracts to provide assistance to grantees on improving their performance.



                                         7            SCSEP Antideficiency Act Violation
                                                          Report No.25-09-001-03-360
                               U. S. Department of Labor – Office of Inspector General


An ETA official responsible for overseeing SCSEP stated that changes to the
Older Americans Act necessitated more technical assistance than was needed in
prior years when the program rules and processes had remained relatively static.
New provisions resulting from the 2000 and 2006 amendments included
requirements for greater coordination with the Workforce Investment Act;
submission of annual state plans; new performance measures; and corrective
action and sanctions for poor performance. Regulations were issued in April
2004 and a comprehensive data collection and performance evaluation system
(SPARQ) was created to help provide grantees meet the new and existing
requirements, and additional technical assistance was required for actual
implementation of the regulations and SPARQ. Finally, the 2006 amendments
changed the performance measures and added new requirements for durational
limits, both requiring changes in SPARQ and on-going technical assistance to
grantees.

ETA also provided information to OIG showing that it had awarded $19,101,511
of the recaptured funds to SCSEP grantees for program activities. Exhibit 2
provides a summary and detailed listing of the contractors that ETA stated had
performed technical assistance utilizing reobligated funds, as well as grantees
awarded additional funds.

In its September 11, 2008, letter to the President reporting the Antideficiency Act
violation, the Department stated that the total amount of the violations was
$39,450,476. We are continuing to work with ETA officials to reconcile the
amounts reported as recaptured, reobligated, and expended.

What options are potentially available to DOL for using sources other than
SCSEP formula funds to pay for contractor-provided technical assistance?

The Older Americans Act (OAA) of 2000 authorized the use of unspent SCSEP
funds for technical assistance, and the 2006 amendments specifically allowed
the Secretary to reserve up to 1.5 percent of the annual SCSEP appropriation for
such support. ETA senior officials reported that the only other possible funding
source would be resources obligated to administration (Salary and Expenses).
When asked how the Department provided technical assistance prior to these
provisions in the law, senior ETA officials noted that Federal program office staff
generally provided such support directly or through the issuance of Older Worker
Bulletins by the SCSEP national office.

Title V of the Older Americans Act, Section 502(a)(2) states:

      USE OF APPROPRIATED AMOUNTS – Amounts appropriated to carry out
      this title shall be used only to carry out the provisions in this title.

To carry out Title V, the Department makes grants to public and nonprofit
private agencies and organizations, State agencies, and tribal

                                         8            SCSEP Antideficiency Act Violation
                                                          Report No.25-09-001-03-360
                                U. S. Department of Labor – Office of Inspector General


organizations. The objectives of these grants are to foster individual
economic self-sufficiency and promote useful opportunities in community
service activities, including community service employment, for
unemployed, low-income persons who are age 55 or older.

In FY 2003, the Department began using recaptured unexpended grant
funds to pay for contractor-provided technical assistance. This use of Title
V funds was authorized by Section 515(c) of the Older Americans Act
Amendments of 2000:

       At the end of the program year, the Secretary may recapture any
       unexpended funds for the program year, and reobligate such funds
       within the two succeeding program years for –

 (1)    incentive grants;
 (2)    technical assistance;or
 (3)    grants or contracts for any other program under this title.

After the Department recognized that a provision in the Department’s
appropriation acts prohibited the recapture of unexpired funds, it issued an order
dated May 16, 2008, to suspend work on all SCSEP contracts funded with
improperly reobligated funds.

On May 30, 2008, ETA issued Training and Employment Guidance Letter (TEGL)
30-07 that reduced previously announced SCSEP funding amounts by $5 million
and authorized positions by 447. The purpose of the reduction was to reserve
funds for evaluation, training and assistance, and other activities authorized
under Section 502(e) of the OAA. The $5 million represented about 1 percent of
the SCSEP funds appropriated for PY 2008; the OAA permits up to 1.5 percent
of SCSEP funds to be used for such purposes.

In its Spending Plan for SCSEP PY 2008 Reserved Funds, ETA requested the
following for Evaluation, Training and Technical Assistance Needs:




                                          9            SCSEP Antideficiency Act Violation
                                                           Report No.25-09-001-03-360
                                 U. S. Department of Labor – Office of Inspector General



        Contractor                        Purpose of Contract                        Amount
CITI/SAIC               Provide IT development and implementation for
                        SPARQ, including completion of grantee performance
                        evaluation required by the SCSEP reauthorization                $900,000
Mathematica             Provide specifications, testing, and grantee/sub-grantee
                        technical assistance on all technological aspects of
                        SPARQ                                                          $1,080,000
DOLETA PROTECH Office   In-house IT infrastructure to house and maintain
                        SPARQ                                                           $500,000
Charter Oak Group       Manage annual customer satisfaction evaluation
                        surveys and data analysis                                       $400,000
Charter Oak Group       Technical assistance to grantees on performance
                        evaluation measures and data collection                         $400,000

                        (Kathleen Dorcy – consultant) Consulting services to
                        coordinate and deliver technical assistance activities for
                        SCSEP grantees                                                  $200,000

                        (Joyce Welch – consultant) Consulting services to
                        develop and deliver training and individual technical
                        assistance to SCSEP grantees                                    $125,000
Exceed Corporation      Technical assistance with employer engagement,
                        partnership development, outreach, and administrative
                        support                                                         $260,000
To be identified        Graphics design, printing, housing and distribution of
                        outreach materials used by SCSEP grantees for
                        program recruitment and National Employ Older
                        Workers Week                                                     $100,000
Total                                                                                  $3,965,000


ETA indicated that it anticipated additional spending requests to provide training
and technical assistance to SCSEP grantees based on their PY 2007
performance deficiencies and on the pending new regulations.

ETA could use funds from its Program Administration account to provide
technical assistance to SCSEP grantees. The Program Administration account
provides for the Federal administration of all Employment and Training
Administration programs. ETA’s FY 2008 budget request included $216 million
for Program Administration.

Prior to the enactment of amendments to the OAA in 2000 that authorized the
use of recaptured funds to provide technical assistance to grantees, a SCSEP
official stated that such technical assistance was provided by Federal SCSEP
staff. Currently, the SCSEP program is staffed by four employees in the National
Office, with the assistance of field representatives in ETA’s six regional offices.
These employees’ salaries are paid out of ETA’s Program Administration
account.




                                             10                SCSEP Antideficiency Act Violation
                                                                   Report No.25-09-001-03-360
                             U. S. Department of Labor – Office of Inspector General


Is the proposed SCSEP regulation consistent with existing law and does it
meet the standards laid out in White House Chief of Staff Joshua Bolten’s
memorandum of May 9, 2008?

We did not find any direct inconsistency between the Department’s proposed
SCSEP regulations and the Older Americans Act, as amended. However, we did
find that the Department’s proposed regulation imposing a one-year, one-time
extension for an individual’s participation in the program beyond the 48-month
period specified by Congress was more restrictive than the maximum 36 month
extension contained in the statute. We also noted that the Department’s
proposed regulation sets a 1,300-hour limit on annual community service
employment participation, but the 2006 OAA does not contain any requirement to
limit the number of hours an SCSEP participant spends annually in his/her
community service employment assignment.

To determine if any conflict exists, OIG reviewed the NPRM, the Older
Americans Act which authorizes the SCSEP (including the 2006 amendments),
the relevant legislative history, as well as comments received by the Department
following the August 2008 publication of the Notice of Proposed Rule Making
(NPRM). In concluding whether the proposed regulation was consistent with
existing law, we recognized that agency regulations are by their very nature
“interpretive,” whereas statutory language enacted by Congress is typically more
broad and sweeping in scope. The purpose of agency regulations is to interpret
and implement statutory provisions. As long as the implementing regulations did
not directly contradict the statutory language, we concluded that there was no
improper or illegal conflict between the two.

The proposed regulation does not meet the standards laid out in White House
Chief of Staff Joshua Bolten’s memorandum of May 9, 2008. The May 9, 2008,
memorandum stated that all proposed regulations should be issued no later than
June 1, 2008, and final regulations no later than November 1, 2008. The
proposed SCSEP regulation was not issued until August 14, 2008 and, to date,
the final regulations have not been issued.

Is the proposed SCSEP regulation consistent with existing law?

On October 17, 2006, President Bush signed the Older Americans Act
Amendments of 2006, Public Law 109-365 (2006 OAA Amendments). The law
amended the statute authorizing the SCSEP and required changes to
the SCSEP regulations. On June 29, 2007, the Department issued an interim
final rule on Subpart G of the law which addresses performance accountability
measures for the program (e.g., performance outcomes, one-year retention,
customer satisfaction). The Department issued its proposed rules on other
sections of the Older Americans Act Amendments of 2006 on August 14, 2008.



                                       11           SCSEP Antideficiency Act Violation
                                                        Report No.25-09-001-03-360
                               U. S. Department of Labor – Office of Inspector General


The August 14, 2008 NPRM proposed changes in the following areas:

   •   Definitions
   •   Coordination with the Workforce Investment Act
   •   The State Plan
   •   Grant Application and Responsibility Review Requirements
   •   Services to Participants
   •   Pilot, Demonstration, and Evaluation Projects
   •   Administrative Requirements

According to ETA, the Department received 1,507 comments on the NPRM and
is in the process of reviewing those comments prior to finalizing the rule. These
comments included 13 form letters totaling 959 comments, and 1 petition with
182 signatures (each signature counts as a comment). Removing the known
duplicates, the Department received 380 specific comments on the NPRM. The
Department reported it did not perform any “trend analysis” that might show the
distribution of the 380 comments by subject. However, senior ETA managers
noted “a number of comments” on two provisions in Subpart E—Services to
Participants:

   •   Section 641.570 (b). Increased periods of individual participation. The
       provision would grant certain individuals (e.g., persons age 75 or older,
       persons with a severe disability) a one-time, one-year extension beyond
       the limit of 48 months of participation; and

   •   Section 641.577. Community service employment assignment hours.
       The provision would reinstate a previous policy limiting the hours that a
       participant may work at his/her community service employment
       assignment to 1,300 per year.

The following chart compares the statutory and proposed regulatory language for
key provisions in the NPRM:




                                        12            SCSEP Antideficiency Act Violation
                                                          Report No.25-09-001-03-360
                                                                                    U. S. Department of Labor – Office of Inspector General



                     Comparison of Selected Provisions in Older American Act Title V (2006 Amendments) and
                                         Proposed Title V Regulations (August 14, 2008)

                     Statute     Provision                       NPRM        Provision                 OIG Comments
Issue                (section)                                   (section)

                     502 (b)     Grantees may extend an           641.570    Imposes a one-year,       Numerous commenters questioned the
Increased periods    (1) ( C )   individual's participation in               one-time extension for    proposed time limits, and noted that
of participation     (ii)        the program up to 36                        participants above and    the statute did not set an absolute limit.
                                 months under specific                       beyond the 48 month       While the proposed rule does not
                                 conditions (e.g., certain                   period specified by       violate the statute because the
                                 barriers to employment).                    Congress                  Department did not go beyond the 36-
                                                                                                       month limit, the one-year, one-time
                                                                                                       extension is more restrictive than the
                                                                                                       maximum 36 month limit in the statute.

Community service    No          The 2006 OAA does not            641.577    Sets a 1,300-hour limit   There is no requirement that the
employment           provision   contain any requirement to                  on annual community       NPRM implement a specific provision
assignment (1,300-               limit the number of hours                   service employment        in the law. The Department notes the
hour annual limit)               an SCSEP participant                        participation.            provision reinforces that the SCSEP is
                                 spends annually in his/her                                            intended to provide temporary, part-
                                 community service                                                     time work. In its Preamble to the
                                 employment assignment.                                                NPRM, the Department notes that the
                                                                                                       1,300 hours is above the average
                                                                                                       number of hours worked per year by
                                                                                                       SCSEP participants in their community
                                                                                                       service jobs--e.g., 20 hours or 1,040
                                                                                                       per year. The Preamble states that a
                                                                                                       similar provision appeared in a 1995
                                                                                                       rule on the OAA. Numerous
                                                                                                       commenters questioned the provision--
                                                                                                       saying it disregarded specific needs of
                                                                                                       a community (such as a responding to
                                                                                                       a natural disaster) and the conditions
                                                                                                       of the labor market.




                                                                      13                                       SCSEP Antideficiency Act Violation
                                                                                                                   Report No.25-09-001-03-360
                                                                                U. S. Department of Labor – Office of Inspector General



                    Comparison of Selected Provisions in Older American Act Title V (2006 Amendments) and
                                        Proposed Title V Regulations (August 14, 2008)

                    Statute     Provision                   NPRM        Provision                     OIG Comments
Issue               (section)                               (section)

Purpose of the      502 (a)     "Foster …economic self-      641.110    SCSEP [trains                 The NPRM conforms to the law
SCSEP               (1)         sufficiency…and increase                unemployed, low-              because it does not contain any
                                the number of persons who               income older workers]         language to specifically prohibit
                                may enjoy the benefits of               in part-time community        participation in community service
                                unsubsidized                            service employment            activities. Some commenters felt the
                                employment…"                            assignments…to                provision emphasized placement over
                                                                        facilitate their transition   community service--citing Section 516
                                                                        to unsubsidized               of the 2006 OAA. Section 516 ("Sense
                                                                        employment."                  of Congress') contains no reference to
                                                                                                      unsubsidized employment as a
                                                                                                      program goal.

New definition of   518 (a)     CSE is "part-time,           641.140    This section contains         Some commenters suggested the
community service   (2)         temporary                               definitions for the           Department add the CSE definition to
employment (CSE)                employment…individuals                  program--but not one          section 641.140. But the omission
                                are engaged in community                for CSE.                      does not violate the statute because
                                service and receive work                                              the Department has flexibility in
                                experience and job skills                                             deciding which definitions to include in
                                that lead to unsubsidized                                             the NPRM.
                                employment."




                                                                 14                                           SCSEP Antideficiency Act Violation
                                                                                                                  Report No.25-09-001-03-360
                                                                                 U. S. Department of Labor – Office of Inspector General



                     Comparison of Selected Provisions in Older American Act Title V (2006 Amendments) and
                                         Proposed Title V Regulations (August 14, 2008)

                     Statute     Provision                    NPRM        Provision                 OIG Comments
Issue                (section)                                (section)

Income eligibility   518 (3)     The law changed how the       641.510    Explains how the          NPRM is consistent with the 2006 OAA
and calculation      (A)         Department determines                    Department is to          and states that the Department may
                                 income eligibility for the               calculate income          update administrative guidance, as
                                 SCSEP. Excludes certain                  eligibility for SCSEP.    needed.
                                 types of income received
                                 under the Social Security
                                 Act, unemployment
                                 compensation, and benefit
                                 payments under laws
                                 administered by the
                                 Secretary of Veterans
                                 Affairs.

Coordination with    503 (b)     Directs Secretary to          641.200    Only mentions             The proposed regulation would not
other Federal                    “coordinate the [SCSEP]                  coordination with the     violate the 2006 OAA by omitting any
programs                         with programs carried out                Workforce Investment      references to these other programs.
                                 under other titles of the                Act--but not the other    However, commenters noted the
                                 statute, to increase                     Federal programs          NPRM “fails to strengthen coordination
                                 employment opportunities                 under other legislation   that is required between SCSEP and
                                 available to older                       mentioned by the          other Federal programs, including
                                 individuals.”                            OAA--e.g., the            other OAA programs.”
                                                                          Rehabilitation Act of
                                                                          1973, Domestic
                                                                          Volunteer Service Act.




                                                                   15                                      SCSEP Antideficiency Act Violation
                                                                                                               Report No.25-09-001-03-360
                                                U. S. Department of Labor – Office of Inspector General



Does the proposed regulation meet the standards laid out in White House Chief of Staff
Joshua Bolten’s memorandum of May 9, 2008?

The proposed regulation does not meet the standards laid out in White House Chief of
Staff Joshua Bolten’s memorandum of May 9, 2008.

On May 9, 2008, White House Chief of Staff Joshua Bolten sent a memorandum to the
heads of all executive departments and agencies that provided deadlines for proposing
and issuing new regulations. In the memorandum, the White House directed officials to
issue proposed regulations no later than June 1, 2008, and final regulations no later
than November 1, 2008. The memorandum stated exceptions could be made for
“extraordinary” circumstances.

The Department did not adhere to the two deadlines outlined in Mr. Bolten’s
memorandum. In the first instance, the Department did not publish the proposed
SCSEP rules in the Federal Register until August 14, 2008 — more than 10 weeks after
the June 1, 2008, cut off date.

We asked Department officials what “extraordinary” circumstance allowed the
Department to publish the proposed regulation after the June 1, 2008 cut off date. Both
ETA program staff and OASAM budget officials said the Department began drafting the
regulation before the White House issued its May 2008 memorandum. Officials noted
that the NPRM on the 2006 OAA appeared as one of ETA’s four priority regulatory
initiatives in the Department’s Fall 2007 Semiannual Regulatory agenda.1

ETA continues to review and respond to comments on the NPRM; therefore, it has not
met the second deadline for publishing final regulations by November 1, 2008.
According to one senior ETA official, the agency is on a “normal” schedule for
publishing the final rule for the 2006 OAA no later than March 2009.




Elliot P. Lewis




1
    See http://www.dol.gov/asp/regs/unifiedagenda/plan07.htm

                                                        16             SCSEP Antideficiency Act Violation
                                                                           Report No.25-09-001-03-360
                                 U. S. Department of Labor – Office of Inspector General




                                                                               Exhibit 1

                      Listing of SCSEP National Grantees



AARP Foundation
Asociacion Nacional Pro Personas Mayores
Easter Seals
Experience Works
Goodwill Industries International
Institute for Indian Development
Mature Services
National Able Network
National Asian Pacific Center on Aging
National Caucus and Center on Black Aged
National Council on the Aging
National Indian Council on Aging
National Urban League
Quality Career Services
Senior Service America
SER – Jobs for Progress National
Vermont Associates for Training & Development
The Workplace




                                       17               SCSEP Antideficiency Act Violation
                                                            Report No.25-09-001-03-360
                                                        U. S. Department of Labor – Office of Inspector General


                                                                                                     Exhibit 2
                                                                                                   Page 1 of 6




                        Summary of Recaptured Funds Obligated
                          For Technical Assistance Contracts

Type of Technical     PY        PY            PY             PY             PY          Total PY
Assistance           2001      2002          2003           2004           2005        2001-2005
Develop and
Maintain SPARQ
System                  $-0-        $-0-   $2,233,705     $1,216,961      $ 938,100    $4,388,766
SPARQ System
Support to SCSEP
Grantees             495,124   2,189,439    1,000,078      1,037,503        484,496      5,206,640
Performance
Improvement          140,185   3,715,786    1,952,851      2,140,038        815,708     8,764,568
Total               $635,309   5,905,225   $5,186,634     $4,394,502      2,238,304    18,359,974




                                           18                                  SCSEP Antideficiency Act Violation
                                                                                   Report No.25-09-001-03-360
                                  U. S. Department of Labor – Office of Inspector General


                                                                                Exhibit 2
                                                                              Page 2 of 6

                    Schedule of SCSEP Contractors Involved in
                   Developing and Maintaining the SPARQ System
                              Amount of Recaptured Funds Obligated
    Contractor        PY 2001 PY 2002       PY 2003   PY 2004     PY 2005
KT Consulting                                 $890,000
SAIC                                           750,000
Ancon Group                                    250,000
Mythics                                        115,482
Heitech                                         76,842       $197,270         123,202
Tsystems                                        53,110
Manila                                          34,243
Colding Tech                                    28,500          72,868
Carahsoft                                       10,469          20,271
World Wide Tech                                  6,936
Oracle                                           5,506          34,007
Panamerica                                       4,513
SCM Solutions                                    3,600             180
Computer Assoc.                                  3,595
Spectrum Systems                                   909            383
Creative Info Tech                                            847,263         799,966
T COOMBS                                                       18,743
Dynamic                                                        14,221
Grafik Industries                                               7,290
Comp Assoc Interns                                              2,520
Merlin International                                            1,945
DLT Solutions                                                                   7,761
Force 3                                                                         7,171
Total                                        $2,233,705    $1,216,961         938,100




                                        19                SCSEP Antideficiency Act Violation
                                                              Report No.25-09-001-03-360
                                  U. S. Department of Labor – Office of Inspector General


                                                                                Exhibit 2
                                                                              Page 3 of 6

                     Schedule of SCSEP Contractors Providing
                    SPARQ System Support to SCSEP Grantees
                             Amount of Recaptured Funds Obligated
    Contractor       PY 2001     PY 2002   PY 2003      PY 2004   PY 2005
Mathematica          $495,124   $1,140,080   $1,000,078        $995,503     $484,496
Affordable Supply                  125,000                       42,000
SAIC                               924,359
Total                $495,124    2,189,439   $1,000,078      $1,037,503     $484,496




                                        20                SCSEP Antideficiency Act Violation
                                                              Report No.25-09-001-03-360
                                     U. S. Department of Labor – Office of Inspector General


                                                                                    Exhibit 2
                                                                                  Page 4 of 6

                        Schedule of SCSEP Contractors Providing
                       Program Improvement Technical Assistance
                                Amount of Recaptured Funds Obligated
    Contractor          PY 2001     PY 2002   PY 2003      PY 2004   PY 2005
DTI                      $84,998    $796,226      $415,383         $100,048
KRA Corporation           25,000     275,000         8,083
Lindberg Group            24,504
Industrial Strength
Production                 5,000        2,375
Coffey
Communications               683    1,555,338
Exceed                                535,732      347,000          211,000       135,017
TATC                                  319,738      549,189          322,316            80
Dah                                   113,211
Native American
Management
Services                              97,998
Patricia Carroll                       7,100
National Academies
Press                                   6,864
Dorinda Fox                             4,504
Citibank –
Environics                              1,400
Citibank – Center on
Budget & Policy                          300
MH West & Co                                       620,000          100,000
Communications
Professional                                         13,196
Charter Oak Group                                                 1,356,669       600,000
McNeely, Pigott &
Fox                                                                  50,005        80,611
Total                   $140,185   $3,715,786   $1,952,851       $2,140,038       815,708




                                           21                 SCSEP Antideficiency Act Violation
                                                                  Report No.25-09-001-03-360
                               U. S. Department of Labor – Office of Inspector General


                                                                            Exhibit 2
                                                                          Page 5 of 6

                 Schedule of SCSEP Grantees That Received
              Additional Awards Using Recaptured PY 2001 Funds

                Grantee                             Amount of Award
AARP                                                                        $200,000
ANPPM                                                                         30,000
Easter Seals                                                                 125,000
Experience Works                                                             230,000
Mature Services                                                               30,000
NICOA                                                                        598,799
NAPCA                                                                        731,201
National Able Network                                                         30,000
National Urban League                                                        400,000
NCOA                                                                          30,000
NCCBA                                                                         30,000
Senior Service America                                                       125,000
SER Jobs for Progress                                                        180,000
USDA Forest Service                                                           30,000
Total                                                                  $2,770,000.00


                 Schedule of SCSEP Grantees That Received
              Additional Awards Using Recaptured PY 2002 Funds

                Grantee                             Amount of Award
Easter Seals                                                                  79,277
NAPCA                                                                      2,000,000
NICOA                                                                          7,294
National Able Network                                                        296,612
Total                                                                     $2,383,183


                 Schedule of SCSEP Grantees That Received
              Additional Awards Using Recaptured PY 2003 Funds

                Grantee                             Amount of Award
NAPCA                                                                      2,000,000
USDA Forest Service                                                        1,000,000
Total                                                                     $3,000,000




                                     22               SCSEP Antideficiency Act Violation
                                                          Report No.25-09-001-03-360
                                    U. S. Department of Labor – Office of Inspector General


                                                                                 Exhibit 2
                                                                               Page 6 of 6

                  Schedule of SCSEP Grantees That Received
               Additional Awards Using Recaptured PY 2004 Funds

                Grantee                                  Amount of Award
AARP                                                                           $2,129,909
NICOA                                                                           1,332,385
Quality Career Services                                                         1,129,464
SER Jobs for Progress                                                           2,422,182
USDA Forest Service                                                               500,000
Vermont                                                                         1,423,916
Total                                                                          $8,937,856


                  Schedule of SCSEP Grantees That Received
               Additional Awards Using Recaptured PY 2005 Funds

                          Grantee                                  Amount of Award
AARP                                                                          $272,209
ANPPA                                                                           10,000
Easter Seals                                                                    10,000
Experience Works                                                               538,022
Goodwill Industries                                                             52,891
Institute for Indian Development                                                69,536
NAPCA                                                                          291,600
National Caucus on Black Aged                                                   81,398
National Council on the Aging                                                   54,491
National Indian Council                                                        244,244
National Urban League                                                           85,483
Operation Able                                                                  19,729
Mature Services                                                                 19,456
Quality Career Services                                                         10,000
SSA                                                                             80,307
SER Jobs for Progress                                                          142,450
Vermont Association for Training & Development                                  10,677
Tennessee                                                                          329
The Workplace                                                                   17,650
Total                                                                       $2,010,472




                                          23               SCSEP Antideficiency Act Violation
                                                               Report No.25-09-001-03-360
